No. _________

IN THE SUPREME COURT OF THE UNITED STATES
ROBERT WALTER SCULLY, Petitioner
v.
STATE OF CALIFORNIA, Respondent.
_________________
APPLICATION FOR EXTENSION OF TIME TO FILE
PETITION FOR WRIT OF CERTIORARI
TO THE SUPREME COURT OF THE STATE OF CALIFORNIA
(DEATH PENALTY CASE)
MARY K. MCCOMB
STATE PUBLIC DEFENDER
STATE OF CALIFORNIA
CHRISTINA A. SPAULDING*
Chief Deputy State Public Defender
*Counsel of Record
VALERIE HRICIGA
Supervising Deputy State Public Defender
1111 Broadway, Suite 1000
Oakland, CA 94607
Christina.Spaulding@ospd.ca.gov
(510) 267-3300
Counsel for Petitioner

No. _________
_________________
IN THE SUPREME COURT OF THE UNITED STATES
OCTOBER TERM, 2021
_________________
ROBERT WALTER SCULLY, Petitioner,
v.
STATE OF CALIFORNIA, Respondent.
_________________
APPLICATION FOR EXTENSION OF TIME TO FILE
PETITION FOR WRIT OF CERTIORARI
TO THE SUPREME COURT OF THE STATE OF CALIFORNIA
(DEATH PENALTY CASE)
To the Honorable Elena Kagan, Associate Justice of the Supreme Court of the
United States and Circuit Justice for the Ninth Circuit:
Petitioner, Robert Walter Scully, requests a 60-day extension of time to and
including December 18, 2021, to file his petition for a writ of certiorari in this Court. The
jurisdiction of this court is invoked under 28 U.S.C. section 1257(a).
On May 24, 2021, the Supreme Court of California issued its original opinion on
petitioner’s automatic appeal from a sentence of death. People v. Scully, 11 Cal.5th 542
(2021). A copy of the final opinion is attached as Appendix A. Petitioner filed a timely
petition for rehearing. On July 21, 2021, rehearing was denied in an order that modified
the original opinion. That order is attached as Appendix B. Thus, the time to petition for a
writ of certiorari in this Court expires on October 19, 2021. This application for an
extension of time of 60 days, to and including December 18, 2021, in which to file the
petition is being filed more than 10 days before that date.

This capital case raises several important federal constitutional issues and will
meet the criteria for a discretionary grant of review under Supreme Court Rule 10. Issues
under examination include whether a state court violates a capital defendant’s rights
under the Fifth. Sixth, Eighth, and Fourteenth Amendments by not requiring a jury to find
the existence of each aggravating factor unanimously and beyond a reasonable doubt and
by not requiring a jury to find beyond a reasonable doubt that the factors in aggravation
outweigh the factors in mitigation.
An extension of time to file a petition for a writ of certiorari is justified because
these important issues, and others, warrant careful scrutiny and resolution. A substantial
amount of time is required to research and draft the petition competently.
Furthermore, the attorney to whom this case is assigned in our office and who
argued the case before the California Supreme Court, Supervising Deputy State Public
Defender Valerie Hriciga, is recovering from a serious shoulder fracture which has
significantly impeded her ability to work. I am working with her on the petition,
preparation of which is of highest priority, while meeting my obligations as the Chief
Deputy State Public Defender.
For all of these reasons, counsel has been unable to complete the petition and
respectfully requests an extension of 60 days, to and including December 18, 2021, in
which to file the petition for writ of certiorari on petitioner’s behalf.

Accordingly, petitioner respectfully requests that an order be entered extending his
time to petition for a writ of certiorari by 60 days, to and including December 18, 2021.
Dated: October 7, 2021
Respectfully submitted,
MARY K. McCOMB
STATE PUBLIC DEFENDER
STATE OF CALIFORNIA

____________________________
Christina A. Spaulding*
Chief Deputy State Public Defender
*Counsel of Record
Valerie Hriciga
Supervising Deputy State Public Defender

